No.

In the

Supreme Court of the United States
DAVID DAVALOS SR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Now comes the Petitioner, David Davalos Sr., and pursuant to 18 U.S.C. §
3006A, and Rule 39.1 of this Court, respectfully requests leave to proceed in forma
pauperis before this Court, and to file the attached Petition for a Writ of Certiorari to
the United States Court of Appeals for the Fifth Circuit without prepayment of filing
fees and costs.
In support of this motion, Petitioner states that he is indigent and was sentenced
to a term of imprisonment in the United States Bureau of Prisons, and was represented
by Nelson S. Ebaugh pursuant to 18 U.S.C. § 3006A in the United States Court of
Appeals for the Fifth Circuit.

1

WHEREFORE, Petitioner, David Davalos Sr., asks leave to proceed in forma
pauperis.
Dated: September 17, 2020
Respectfully submitted,

Nelson S. Ebaugh
State Bar No. 24007139
Nelson S. Ebaugh, P.C.
3730 Kirby Drive, Suite 1200
Houston, Texas 77098
Tel. (713) 752-0700
Fax (713) 739-0500
nebaugh@ebaughlaw.com
Attorney for Petitioner – CJA counsel,
appointed under 18 U.S.C. § 3006A

2

